WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-5050

Ezra Leslie

v.

New York
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
El Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

August 4, 2020

(Type or print) Name

Ms. 0 Mrs. D Miss

Suffolk County District Attorney

Address

200 Center Drive

City & State
Phone

-

Karla Lato
D Mr.

Firm

ADigitally signed by Karla Lato

Karla Lato

Riverhead, New York

(631) 852-2500

Zip
Email

11901

Karla.Lato@suffolkcountyny.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

RECEIVED

CC: Ezra Leslie, Din 03-A-3404, Clinton C.F., P.O. Box 2001, Dannemor , NY 1292

AUG 1 2 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

